 Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 





 MEDICARE COMPLIANCE REVIEW OF 

 THE BROOKLYN HOSPITAL CENTER 

FOR CALENDAR YEARS 2010 AND 2011 





   Inquiries about this report may be addressed to the Office ofPublic Affairs at
                            Public.Atfairs@oig.hhs.gov.




                                                     James P. Edert 

                                                Regional Inspector General 


                                                        June 2013 

                                                       A-02-12-01021 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                   EXECUTIVE SUMMARY



BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis of
claims. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

The Brooklyn Hospital Center (the Hospital) is an acute-care hospital located in Brooklyn, New
York. Medicare paid the Hospital approximately $116.3 million for 9,097 inpatient and 32,896
outpatient claims for services provided to beneficiaries during calendar years 2010 and 2011
(audit period) based on CMS’s National Claims History data.

Our audit covered $987,213 in Medicare payments to the Hospital for 162 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in our audit period and consisted of 125 inpatient and 37 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 27 of the 162 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare


                                                  i
billing requirements for the remaining 135 claims, resulting in overpayments of $544,783 during
our audit period. Specifically, 112 inpatient claims had billing errors, resulting in overpayments
of $531,663, and 23 outpatient claims had billing errors, resulting in overpayments of $13,120.
These overpayments occurred primarily because the Hospital did not have adequate controls to
prevent incorrect billing of Medicare claims within the selected risk areas that contained errors.

RECOMMENDATIONS

We recommend that the Hospital:

   •		 refund to the Medicare contractor $544,783, consisting of $531,663 in overpayments for
       the incorrectly billed inpatient claims and $13,120 in overpayments for the incorrectly
       billed outpatient claims, and

    •		 strengthen controls to ensure full compliance with Medicare requirements.

THE BROOKLYN HOSPITAL CENTER COMMENTS

In its written comments on our draft report, the Hospital concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them.




                                                ii
                                                   TABLE OF CONTENTS


                                                                                                                                       Page

INTRODUCTION........................................................................................................................1 


      BACKGROUND ...................................................................................................................1 

         Hospital Inpatient Prospective Payment System ...........................................................1 

         Hospital Outpatient Prospective Payment System.........................................................1 

         Hospital Claims at Risk for Incorrect Billing ................................................................1 

         Medicare Requirements for Hospital Claims and Payments .........................................2 

         The Brooklyn Hospital Center .......................................................................................2 


      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3 

         Objective ........................................................................................................................3 

         Scope ..............................................................................................................................3


         Methodology ..................................................................................................................3 


FINDINGS AND RECOMMENDATIONS ..............................................................................4 


      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS....................................4 

          Incorrectly Billed as Inpatient........................................................................................5 

          Incorrect Diagnosis-Related Groups ..............................................................................5 

          Lack of Documentation Supporting Services ................................................................5 

          Manufacturer Credit for a Replaced Medical Device Not Obtained .............................6 


      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS................................6 

          Incorrect Healthcare Common Procedure Coding System Codes .................................6 

          Lack of Documentation Supporting Services ................................................................7 

          Incorrectly Billed Number of Units ...............................................................................7 


      RECOMMENDATIONS ......................................................................................................7 


      THE BROOKLYN HOSPITAL CENTER COMMENTS ...................................................8 


APPENDIXES

      A: RESULTS OF REVIEW BY RISK AREA

      B: THE BROOKLYN HOSPITAL CENTER COMMENTS




                                                                     iii
                                              INTRODUCTION



BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per­
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis of
claims. Examples of the types of claims at risk for noncompliance included the following:

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1

    •   inpatient short stays,

    •   inpatient hospital-acquired conditions and present-on-admission indicator reporting,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient claims for blood clotting factor drugs,



    •   outpatient intensity modulated radiation therapy (IMRT) planning services,



    •   outpatient claims billed with modifier -59 (indicating that a procedure or service was


        distinct from other services performed on the same day),



    •   outpatient claims billed with Doxorubicin Hydrochloride, and



    •   inpatient and outpatient manufacturer credits for replaced medical devices.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, § 1833(e) of the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, § 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them
correctly and promptly. Chapter 23, § 20.3, of the Manual states that providers must use HCPCS
codes for most outpatient services.

The Brooklyn Hospital Center

The Brooklyn Hospital Center (the Hospital) is an acute-care hospital located in Brooklyn, New
York. Medicare paid the Hospital approximately $116.3 million for 9,097 inpatient and 32,896
outpatient claims for services provided to beneficiaries during calendar years 2010 and 2011
(audit period) based on CMS’s National Claims History data.



                                                   2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $987,213 in Medicare payments to the Hospital for 162 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in our audit period and consisted of 125 inpatient and 37 outpatient claims.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected four
claims to focused medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital in August and September 2012.

Methodology

To accomplish our objective, we:

   •		 reviewed applicable Federal laws, regulations, and guidance;

   •		 extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for our audit period;

   •		 obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for our audit period;

   •		 used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •		 judgmentally selected 162 claims (125 inpatient and 37 outpatient claims) for detailed
       review;



                                                 3

   •		 reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

   •		 requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •		 used CMS’s Medicare contractor medical review staff to determine whether four selected
       claims met medical necessity requirements;

   •		 reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •		 reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •		 discussed the incorrectly billed claims with Hospital personnel to determine the


       underlying causes of noncompliance with Medicare requirements;



   •		 calculated the correct payments for those claims requiring adjustments; and

   •		 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 27 of the 162 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 135 claims, resulting in overpayments of $544,783 during
our audit period. Specifically, 112 inpatient claims had billing errors, resulting in overpayments
of $531,663, and 23 outpatient claims had billing errors, resulting in overpayments of $13,120.
These overpayments occurred primarily because the Hospital did not have adequate controls to
prevent incorrect billing of Medicare claims within the selected risk areas that contained errors.
For a detailed list of the risk areas that we reviewed and associated billing errors, see
Appendix A.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 112 of 125 selected inpatient claims, which resulted
in overpayments of $531,663.




                                                4

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 108 of 125 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. The Hospital stated that these errors occurred because Medicare observation criteria
was not utilized by Hospital staff. As a result of these errors, the Hospital received
overpayments of $512,726. 3

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, § 80.3.2.2, of the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately ….”

For 2 of 125 selected inpatient claims, the Hospital billed Medicare with incorrect DRGs. For
one claim, the Hospital incorrectly billed a DRG based on an incorrect primary diagnosis. For
the other claim, the Hospital incorrectly billed a DRG based on inadequate documentation of
events that occurred prior to admission. The Hospital stated that these errors occurred because
Hospital staff misinterpreted coding guidelines. As a result of these errors, the Hospital received
overpayments of $7,455.

Lack of Documentation Supporting Services

Section 1815(a) of the Act states: “[N]o such payments shall be made to any provider unless it
has furnished such information as the Secretary may request in order to determine the amounts
due such provider … for the period with respect to which the amounts are being paid ….”

For 1 of 125 selected inpatient claims, the Hospital billed Medicare for an inpatient stay but was
unable to provide documentation supporting the services billed. As a result of this error, the
Hospital received an overpayment of $7,210.




3
  The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.



                                                          5

Manufacturer Credit for a Replaced Medical Device Not Obtained

Federal regulations (42 CFR § 412.89(a)) require a reduction in the IPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of the device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device.

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ....” The CMS Provider Reimbursement Manual (PRM), part 1, §
2102.1, states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable
       is the expectation that the provider seeks to minimize its costs and that its actual
       costs do not exceed what a prudent and cost conscious buyer pays for a given item
       or service. If costs are determined to exceed the level that such buyers incur, in
       the absence of clear evidence that the higher costs were unavoidable, the excess
       costs are not reimbursable under the program.

Section 2103.A of the PRM further defines prudent buyer principles and states that Medicare
providers are expected to pursue free replacements or reduced charges under warranties for
medical devices. Section 2103.C.4 provides the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment supplied.

For 1 of 125 selected inpatient claims, the Hospital did not obtain a credit for a replaced medical
device that was available under the terms of the manufacturer’s warranty. The Hospital stated
that this error occurred because there were no controls in place to identify medical device credits
that should have been obtained from the manufacturer. As a result of this error, the Hospital
received an overpayment of $4,272.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 23 of 37 selected outpatient claims, which resulted
in overpayments of $13,120.

Incorrect Healthcare Common Procedure Coding System Codes

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1,



                                                   6

§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately ….”

For 20 of 37 selected outpatient claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes. The Hospital incorrectly billed HCPCS code pairs that should not have been
reported together. The Hospital stated that these errors occurred because the Hospital’s review
process was flawed, and did not include the appropriate input from the Clinical Department. The
Hospital also stated the staff were inadequately trained on the use of modifiers. As a result of
these errors, the Hospital received overpayments of $10,274.

Lack of Documentation Supporting Services

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

For 2 of 37 selected outpatient claims, the Hospital billed Medicare for outpatient services but
was unable to provide documentation supporting the services billed. As a result of these errors,
the Hospital received overpayments of $1,217.

Incorrectly Billed Number of Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1,
§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately ….” The Manual, chapter 17, § 90.2.A, states: “It is … of great importance that
hospitals billing for [drugs] make certain that the reported units of service of the reported
HCPCS code are consistent with the quantity of a drug … that was used in the care of the
patient.” If the provider is billing for a drug, according to chapter 17, § 70, of the Manual,
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description of the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

For 1 of 37 selected outpatient claims, the Hospital billed Medicare for an incorrect amount of
medication administered to the beneficiary. The Hospital stated that this occurred because the
Hospital’s staff was unaware of coding guidelines. As a result, the Hospital received an
overpayment of $1,629.

RECOMMENDATIONS

We recommend that the Hospital:

   •		 refund to the Medicare contractor $544,783, consisting of $531,663 in overpayments for
       the incorrectly billed inpatient claims and $13,120 in overpayments for the incorrectly
       billed outpatient claims, and



                                                7

    •   strengthen controls to ensure full compliance with Medicare requirements.

THE BROOKLYN HOSPITAL CENTER COMMENTS

In its written comments on our draft report, the Hospital concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them. The Hospital’s comments are included in their entirety as Appendix B.




                                               8

APPENDIXES


                       APPENDIX A: RESULTS OF REVIEW BY RISK AREA





                                                                                           Claims
                                                                         Value of           With           Value of
                                                         Selected        Selected          Over­            Over­
                   Risk Area                             Claims          Claims           payments         payments
Inpatient

Short Stays                                                 117            $556,845          109               $519,936
Hospital-Acquired Conditions and Present-
                                                             6               252,370           2                    7,455
On-Admission Indicator Reporting
Manufacturer Credits for Replaced Medical
                                                             2                72,628           1                    4,272
Devices
 Inpatient Totals                                           125            $881,843          112               $531,663

Outpatient

Claims Billed With Modifier -59                             28               $74,440          19                 $10,958
Intensity Modulated Radiation Therapy
                                                             5                21,346           3                        533
Planning Services
Claims Billed With Doxorubicin
                                                             4                  9,584          1                    1,629
Hydrochloride
 Outpatient Totals                                          37             $105,370           23                 $13,120

 Inpatient and Outpatient Totals                            162            $987,213          135               $544,783

   Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
   outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
   billing errors we found at the Hospital. Because we have organized the information differently, the information in
   the individual risk areas in this table does not match precisely with this report’s findings.
                                                                                                   Page 1 of 3 




APPENDIX B: THE BROOKLYN HOSPITAL CENTER COMMENTS




                   The Brooklyn Hospital Center
                                                 keeping BrooklYn beai/Jly

                                                                                    Lora Myers
                                                                              VICE PRESIDENT
                                                                       AUDIT AND COMPLIANCE

 May 5, 2013

 Rep01t Number: A-02-12-01021

 Mr. James F. Edert
 Regional Inspector General for Audit Services
 HHS Office ofln5pector General
 26 Federal Plaza, Room 3900
 N ew York, };y 10278

 Dear Mr. Edert:

 On behalf of The Brooklyn Hospital Center, this letter is in response to the Office of
 Inspector General audit rep01t entitled "Medicare Compliance Review of The Brooklyn
 Hospital Center for Calendar Years 2010 and 2011." We concur with the auditors' fmdings
 as reported, and the Hospital has developed corrective action plans addressing each ofthe
 billing errors, as follows:

 hi correctly billed as inpatient
 The audit found that the Hospital incorrectly billed 109 claims to Medicare as inpatient that
 should have been billed as outpatient or outpatient w ith observation services. New York
 State law and regulation (section 405.19 of Title 10 NYCRR) have required hospitals to
 admit to an inpatient service any patient who has been in the Emergency Department for
 eight hours. The State is now promulgating regulations providing for the use of observation
 services, and TBHC is planning to implement a Critical Decision Unit in compliance with
 those regulations. ln the interim , the TBHC Case Management department is utilizing
 Medicare observation criteria for concurrent admission review of all Medicare short-stay
 cases.


                                                                             121 DeKalb Av enue
                                                                             BrooKlyn, NY 11201
                                                                                Tel:718.250.8458
                                                                               Fax:718.250.6951
                                                                                 lmyers@nyp.org
                                                                                                    Page 2 of 3






James P. Ede11, OlG
May 5, 2013, Page Two


lucon ect d.iognosis-relotetl g1·oups
Fortwo u1patieut claims, the Hospital illcorrectly bil led a DRG based 011 au incotrect
primary diagnosis. lntemal rc: view found that the l\ITOfS were attli buiable to
misinterpretation of Coding Clinic guidelines by coding staJT and inadequate physician
documentation to suppott Present ou Admission (POA) assignment. TI1e Hospital has re­
educated 1.1oding and validation staff, at! ending physicians, and house s1aiT on PO/\
indicators.

Lack of doctmtcntntiou suppm·ting scrvkes
TI1e auditors found one claim for which the Hospital could 110t provide documentation
supporting the services hilled. 'l11e Hospital reviewed the daim .and concurred with the
auditors· finding.

Manufactm-er· n edit fill' r-epJaced medical d evi ce not obt a in ed
111e auditors identified one claim for which the Hospital had nol obta[ned a credit from the
manufacturer for a replaced medical device and did not adjust the inpatient claim
accordingly. '11m Hospital is implementing new sollware and procedures which will help to
ensure that all such device credits arc appropriately captured in the fhture.

lnco.n ect IIC PC',S codes
TI1e audit found 19 outpatient claims that had been submitted with incon·ect HCPCS codes
resulting in overpayment. TI1ese were attributable to incorrect use of a modifier indicating
that a separate and distinct service had been perfonned along with the plirn ary procedure
billed. TI1e Hospital fotmd that these etTors were due to inadequate statl'training on the
definit ion and proper use of ttlodifiers. Staff involved in t he process has been trained on the
 use of modifiers using educational materials from CMS; the charge description maste;· aJid
encmmter fonns have been updated where appropriate; and a written policy and procedure
for haudli11g of StiCh claims has been developed.

Lack of d ocumentat ion s uppor1ing services
Two cla.ims involving pltuming ror intensity m odulated radiation therapy were incorrectly
billed. TI1e Radiology Depru1ment has reviewed the incon•ect claims and has modifled its
billing processes to avoid similar cn'Ors in the tlltu~.

I ncon ectlv biJJed nu mber· of wlits
'11\c auditors found one daimfordoxorubicin hydrochloride, a chemotherapy agent. which
had heen billed with the incorrect number of units of the dnag. A new encounter fonn haq
been developed which requires the nurses to indicate the number of units administered, and
U1e medication administration record is being reco11cilcd on u daily ba~is,
                                                                                                         Page 3 of 3






James P. Euert. OIG
iVIay 5, 2013, Page 'llm~o


'TI1e Brooklyn Hos pital Center takes seriously 1Ls obligations to lhe puhli.: and lo iL<; patilj}llS,
including compliance with all law and rcg11lation. Wc will continue to monitor the corrective
aut ions developed in res ponse to the audit 1indings. I also want to tak--e U1.:: opporiLUlity to
commend the OJG audit team for its professionalism and geniality during their time a1 the
Hospital. 'T111.:y wore a pl<Jasure to work with.




                                                      Sino.:rely,

                                                      IT.ora Myers/




~.:::   Richard B. Becker, MD, President <tnd CEO
        Joseph GuruTacilJo. Sr. Vice President aud CFO
        Elizabeth Bonetti. A~sL Vice President
        Evelyn Flores, Revenue Cycle Executive
